Audit Report

Office of Community Oriented 
Policing Services Methamphetamine Initiative Grants 
Awarded to the Arkansas State Police
Little rock, Arkansas

Report No. GR-80-04-006


June 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of Methamphetamine Initiative grants awarded by the Office of Community Oriented Policing Services (COPS Office) to the Arkansas State Police (ASP).  The purpose of these grants is to assist state and local law enforcement agencies in reducing the production, distribution, and use of methamphetamine.  The ASP was awarded two grants totaling $1,850,000 to train and equip up to 75 additional certified laboratory entry officers, extend the number of hours that ASP officers spend on methamphetamine related enforcement activities, and set up operational safety standards.  

We tested the ASP's compliance with four essential grant conditions-reporting, grant drawdowns, budget management and control, and grant expenditures-and found weaknesses in each of the four areas tested.  As a result of the deficiencies identified below, we question $860,321 in grant funds received and recommend an additional $15,000 be put to better use.1
Financial Status and Progress Reporting

The ASP submitted 11 of 13 required Financial Status Reports (FSR), of which 4 were not timely.  The reports were late by a range of 33 days to 228 days.  The ASP reported outlays for 6 of 11 Financial Status Reports but did not have supporting documentation for 2, and 5 of the 6 did not reconcile to drawdowns for the same periods.

Grant Drawdowns

The ASP did not have support for 35 of 47 drawdowns that totaled $827,063, or 80 percent of total drawdowns, in unsupported costs.

Budget and Management Control

Our audit disclosed that the ASP produced a report that identified expenditures by budget category.  Appendix II shows grant expenditures for other than personnel and fringe benefits to be $1,095,327, but the ASP furnished a computerized listing of the same expenditures that totaled $707,538.  Additionally, as previously mentioned, 80 percent of the drawdowns did not have supporting documentation.  Therefore, we were unable to determine if those expenditures were authorized and if movement of dollars between budget categories exceeded 10 percent of the total award amount. 

Grant Expenditures

The ASP was awarded a $7,500 civilian supplement for each of its two grants; however, the ASP did not hire an additional civilian as required by grant criteria.   

	The ASP paid overtime costs of $6,258 that were not supported.

	The ASP lacked adequate internal controls to ensure that items purchased with grant funds were recorded in the ASP inventory system or that items were properly accounted for and overseen.

	The ASP purchased a $25,000 chemical storage container.  They then proposed giving or selling the container to the state of Alabama.  The COPS Office said the ASP could oversee the shipment and monitor the appropriate use of the container.  They went on to say that the ASP could request reimbursement for the container from the COPS Office once documentation was received that showed the container was delivered.  Information on the container was to be kept with all other grant-related material.  The container had not been shipped at the time of our fieldwork nor did the ASP have any assurances from Alabama officials that the container would be used according to grant criteria.  

	The ASP purchased seven trucks and related enforcement equipment with grant funds.  However, one of the trucks was not used by a Regional Lab Coordinator in accordance with the approved grant application, but was instead used for administrative purposes.  

	Over 1½ years after the ASP purchased seven trucks with grant funds in March 2002, retrofitting of six of the seven response trailers for their intended use as stated in the grant application had not been accomplished, and none of the seven were ready to be used in undercover operations.

Our report contains 12 recommendations to address the preceding issues, which are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I of the report.

We discussed the results of our audit with ASP officials and have included their comments in the report as applicable. 



Footnotes

The Inspector General Act of 1978 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.